IMPORTANT CREDIT CARD DISCLOSURES. The following disclosure represents important details concerning Your
Credit Card. The information about costs of the Card are accurate as of the effective date of March 1, 2018. You can call
Us at (800) 848-0018 or write Us at P.O. Box 96730, Bellevue, WA 98009-7730 to inquire if any changes have occurred
since the effective date.
Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

13.99%

Share Secured VISA Gold:
This APR will vary with the market based on the Prime Rate.

8.99% 26.99%

VISA Gold:
depending on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.

10.99% 27.99%

VISA Rewards:
depending on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.
Annual Percentage Rate
(APR) For Balance Transfers

Share Secured VISA Gold: 13.99%
This APR will vary with the market based on the Prime Rate.
VISA Gold: 8.99% - 26.99% depending on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.
VISA Rewards: 10.99% - 27.99% depending on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.

Annual Percentage Rate
(APR) For Cash Advances

Share Secured VISA Gold: 13.99%
This APR will vary with the market based on the Prime Rate.
VISA Gold: 8.99% - 26.99% depending on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.
VISA Rewards: 10.99% - 27.99% depending on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest
on Purchases

We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days of Your statement closing date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit
Card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees
 Foreign Transaction
 Cash Advance

1.00% of each transaction in U.S. dollars
2.00% of each advance

Penalty Fees
 Returned Payment
 Late Payment

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases).” See Your
Account Agreement for details.

Copyright Oak Tree Business Systems, Inc., 2013-2018. All Rights Reserved.

OTBS 054 Web QUAL (2/18)

